U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          2010 Census:
        Quarterly Report
           to Congress,
          January 2011

                 Final Report No. OIG-11-017-I




            For Public Release
                                   Report In Brief
                                           U.S. Department of Commerce Office of Inspector General


Why We Did This Review                 2010 Census: Quarterly Report to Congress
The Supplemental Appropria-            January 2011 (OIG–11-017–I)
tions Act of 2008 gave the Census
Bureau an additional $210 million
                                       What We Found
to help cover spiraling 2010
decennial costs stemming from
the bureau’s problematic efforts to    This report covers 2010 Census activities for two quarterly periods, from April through September
automate major field operations,       2010, and includes more current information where available. We address the status of the Census
major flaws in its cost-estimating     budget and spending of Recovery Act funds; the status of OIG field observations, especially for
methods, and other issues. The         Nonresponse Follow-up (NRFU) and Vacant Delete Check (VDC) operations, and how paper-based
Act’s explanatory statement            operations control system (PBOCS) problems affected them; and risk management activities, includ-
required the bureau to submit to       ing enumerator safety and an allegation of improprieties at one local Census office. In addition, we
Congress a detailed plan and time-
                                       report the findings of other OIG reviews during this period. More specifically, we focused on:
line of decennial milestones and
expenditures, as well as a quan-       •    2010 Census Costs. Although spending remained under budget ($7.4 billion projected; about
titative assessment of associated           $5.5 billion spent), Census did not adequately implement our recommendation to control
program risks, within 30 days.              wage, travel, and training costs. Our two previous quarterly reports highlighted lower cost
OIG must provide quarterly                  estimates offset by higher spending, which were obscured by financial management reporting
reports on the bureau’s progress            that lacked transparency. Here we report that the trend continued, due to inadequate planning
against this plan. This report’s            and insufficient tracking. Additionally, our analysis of travel and training costs reveals inef-
objective was to provide an update          ficiencies.
of activities and operations, iden-    •    OIG Field Observations. IT systems instability caused higher costs and may have negatively
tify budget and spending issues,            affected data quality. Our February and May quarterly reports raised questions about the viability
and examine risks to the 2010               of PBOCS, Census’s primary tool for field workload planning and reporting. Our field obser-
Census program.
                                            vations confirmed the expected: increased cost and potential data errors because of PBOCS’
                                            inadequacies. We describe how the system adversely affected NRFU and its quality control com-
Background                                  ponent, the Field Verification operation that followed NRFU, and the completion of the Update/
                                            Enumerate operation.
First conducted in 1790, decen-
nial censuses have fulfilled a vital        Previous OIG reports tracked early field operations (before April 1, 2010) and NRFU. OIG
constitutional mandate. The 2010            oversight of the 2010 Census continued with NRFU and VDC. We observed some enumerators
Census enumerated more than 300             not following important procedures, such as leaving notice of visits and following questionnaire
million people. The results provide         scripts. During VDC, we also observed respondents’ unwillingness to answer interview ques-
important data that will guide              tions, which affected production. Finally, we explain how Census map quality needs improve-
Congressional apportionment and             ment.
redistricting, as well as the distri-
bution of more than $400 billion of •       Census Employee Safety. Our review of the Census field notes and incident reports indicated
government funding annually.                that not all threats and other criminal conduct directed at enumerators generated either a formal
                                            review or an enforcement action. NRFU highlighted many instances of Census employee risk at
The 2010 Census represents the
                                            the hands of respondents; reports detailed hundreds of instances of threats as well as physical,
largest peacetime mobilization in
                                            verbal, or sexual attacks. We suggest that the Census Bureau, the Department of Commerce,
American history. For this massive
                                            law enforcement agencies, and Congress collaborate to develop an appropriate solution that
undertaking, Census integrated 44
separate operations (with a total of        explicitly addresses enumerator safety.
some 9,400 program- and project-       •    Risk Management Activities. Census’s Risk Review Board (RRB) continued to oversee risk
level activities). Temporary bureau         management activities and modify its risk register. However, the RRB made little progress in
management staff ran 494 local              finalizing outstanding contingency plans. The board’s inability to prioritize the completion of
offices and managed over 600,000            remaining contingency plans—especially with one of the risks rated “high” throughout the major
temporary workers, all in order to          decennial operations—was of serious concern.
contact 134 million U.S. house-
holds. Census completed the count      •    Other OIG Census Reviews. During this period, we examined contract labor costs; investigated
on time and matched the 2000                important whistleblower accusations at a Brooklyn, New York, local Census office; and looked
decennial’s final mail participation        at the bureau’s process for handling fingerprint checks of potential hires.
rate of 74 percent.                    This report does not provide recommendations. We will publish a synopsis and final report of all OIG
                                       field operations and evaluations of the 2010 Census in the spring of 2011.
                      OIG Quarterly Report to Congress, January 2011

                                                            Contents

Introduction and Summary ............................................................................................................. 1 
   2010 Census Costs: Although Spending Remained Under Budget, Census Did Not Adequately
   Implement our Recommendation to Control Wage, Travel, and Training Costs ....................... 1 
   IT Systems Instability Caused Higher Costs and May Have Negatively Affected Data Quality 2 
   Concerns over Census Worker Safety Have Grown; Clarification of Data Confidentiality
   Restrictions Needed for Adequate Employee Protection ............................................................ 2 
   Contract Labor Costs, Whistleblower Issues, and Fingerprinting Adjudication ....................... 2 
Chapter 1: 2010 Census Costs ........................................................................................................ 4 
   Although Census’s Overall Spending Is Under Budget, it Lacks Transparency ........................ 4 
   Analysis of Travel and Training Costs Reveals Some Inefficiencies .......................................... 5 
Chapter 2: Office of Inspector General Field Observations ........................................................... 8 
   PBOCS’ Instability During Census Field Operations Increased Cost and May Have
   Negatively Affected Data Quality ............................................................................................... 8 
   OIG Oversight of the 2010 Census Continued with NRFU and VDC Operations ................... 11 
   PBOCS Delayed Completion of the Update/Enumerate Operation and Forced Changes to the
   Quality Control Operation ........................................................................................................ 14 
Chapter 3: Growing Concerns About the Safety of Census Employees and Update to Bureau
Risk Management Activities ......................................................................................................... 16 
   Substantial Number of Threats and Attacks Against Census Workers Calls for Meaningful
   Strengthening of Protections..................................................................................................... 16 
   Census’s Risk Management Activities ...................................................................................... 18 
Chapter 4: Summary of Other OIG Census Reviews ................................................................... 21 
   Review of DRIS-Incurred Labor Costs ..................................................................................... 21 
   Whistleblower Allegations Concerning Operations in Brooklyn, New York ............................ 23 
   2010 Fingerprinting Adjudication Process .............................................................................. 24 
Appendix A: Objectives, Scope, and Methodology...................................................................... 25 
Appendix B: Local Census Offices Visited by OIG Staff ............................................................ 26 
                    OIG Quarterly Report to Congress, January 2011

                                     Introduction and Summary
The Supplemental Appropriations Act of 2008, enacted June 30, 2008, gave the U.S. Census
Bureau an additional $210 million to help cover spiraling 2010 Census costs. The Act’s
explanatory statement required Census to formulate a detailed plan encompassing a timeline of
decennial activities, cost estimates, and risk management activities. This information and
subsequent updates of Census’s progress are the measures that the Office of Inspector General
(OIG) reviews in these quarterly reports.

Our previous quarterly report, issued in May 2010,1 covered 2010 Census activities from January
through March 2010. It discussed the status of Census’s Paper-Based Operations Control System
(PBOCS) and its relationship to the success of several Census operations, especially
Nonresponse Follow-up (NRFU); the status of the 2010 Census budget and spending of
American Recovery and Reinvestment Act of 2009 (Recovery Act) funds; and an update on
program-level risks to the census, including the development of contingency plans and tests of
physical security at key Census facilities. In addition, we reported the findings of field visits by
OIG personnel.

This report examines 2010 Census activities for two quarterly periods, from April through
September 2010, in order to report comprehensively on the nationwide NRFU field operations
occurring during this time. More current information is included where available. The report
addresses the status of the Census budget and spending of Recovery Act funds; the status of OIG
field observations, especially for NRFU and Vacant Delete Check (VDC) operations, and how
they were affected by PBOCS problems; and risk management activities, including enumerator
safety and an allegation of improprieties at one local Census office. In addition, we report the
findings of field visits by OIG personnel during this period. A synopsis and final report of all
OIG field operations and evaluations of the 2010 Census will be published in the spring of 2011.


2010 Census Costs: Although Spending Remained Under Budget, Census Did Not
Adequately Implement our Recommendation to Control Wage, Travel, and Training
Costs

Both of our last two quarterly reports pointed out that overall Census spending has remained
within budget, but warned of expected increases in the upcoming NRFU and VDC operations.2
The February report highlighted spending disparities among local Census offices on the Address
Canvassing operation, discussed overpayments of mileage reimbursements due to incorrect use
of a higher per-mile rate than warranted, and described how a lowered cost estimate for NRFU
would likely be offset by increases for VDC. In May, we reported that spending was under



1
    2010 Census: Quarterly Report to Congress, May 2010 (OIG-19791-4, May 2010).
2
    2010 Census: Quarterly Report to Congress, May 2010 (OIG-19791-4, May 2010) and 2010 Census: Quarterly
    Report to Congress, February 2010 (OIG-19791-3, February 2010).



                                                 Page 1 of 26
                OIG Quarterly Report to Congress, January 2011

budget but again warned of impending cost increases associated with NRFU. Further, we
discussed the lack of transparency in some of Census's financial management reports.

This report illustrates that the same trend has continued: overall spending was under budget,
although unnecessary costs were incurred and planning was inadequate. Along with insufficient
tracking, this resulted in management’s lack of knowledge regarding operational expenses.


IT Systems Instability Caused Higher Costs and May Have Negatively Affected Data
Quality

Our February and May quarterly reports raised questions about the viability of Census's primary
tool for handling the results of its enumeration: the paper-based operations control system
(PBOCS). Development and testing of this system consistently indicated that reduced
functionality would be a problem and would require various workarounds to complete NRFU—
the largest operation of the decennial. Indeed, PBOCS' instability and frequent outages,
especially when combined with the sheer volume of NRFU-generated data, foretold substantial
reliability problems. OIG field observations confirmed the expected: increased cost and potential
data errors because of PBOCS' inadequacies.

Concerns over Census Worker Safety Have Grown; Clarification of Data
Confidentiality Restrictions Needed for Adequate Employee Protection

NRFU highlighted many instances of Census employee risk at the hands of respondents; reports
detailed hundreds of instances of threats and physical or verbal or sexual attacks. Although the
Census Bureau seeks to ensure enumerator safety, the strong confidentiality clauses in Title 13,
which restrict disclosure of respondent information, complicate the prosecution of such assaults.
While Title 18 makes it a crime to harm federal employees, Title 13 does not expressly facilitate
using Title 18 to address threats directed toward Census staff. Since the use of information about
respondents, obtained by Census workers who have been the victims of these attacks, may be
necessary to prosecute their attackers, it is important that the Census Bureau, the Department of
Commerce, law enforcement agencies, and the Congress develop an appropriate solution. A
complete solution should—while continuing to strongly protect the confidentiality of respondent
information—clearly authorize the use of Census information in the limited situations where it is
needed to protect Census employees and for the investigation and prosecution of crimes
committed directly in connection with the Census.

Contract Labor Costs, Whistleblower Issues, and Fingerprinting Adjudication

During this period we examined contract labor costs, investigated important whistleblower
accusations at one local Census office, and looked at the bureau's process for handling
fingerprint checks of potential employees before hiring.




                                          Page 2 of 26
                OIG Quarterly Report to Congress, January 2011

Labor costs associated with the Decennial Response Integration System appeared to be handled
in accordance with contract stipulations, but not enough analysis was performed by Census to
determine whether the price for a $264-million contract modification was fair and reasonable and
whether, therefore, the bureau received the best value for its expenditure. The whistleblower case
was confirmed, appropriate personnel actions were taken, suspect enumeration results were
redone, and procedures were studied to tighten the system to lessen the opportunities for such
issues in the future. Finally, while fingerprinting adjudication prior to hiring appeared adequate,
we did discover instances in which terminated employees were not removed as quickly as they
should have been, due to procedural problems that need to be addressed.

Appendix A contains a complete discussion of our objectives, scope, and methodology.
Appendix B contains a list of sites visited by OIG staff during NRFU and VDC operations.




                                           Page 3 of 26
                OIG Quarterly Report to Congress, January 2011

                                        Chapter 1:
                                     2010 Census Costs
The 2010 Census was estimated to cost approximately $14.7 billion, reflecting an increase of
$3.2 billion over the last 2 years. For Fiscal Year (FY) 2010, spending on the 2010 Census was
projected to total $7.4 billion. As of September 30, however, the bureau had spent approximately
$5.5 billion for the fiscal year, including $903 million that remained in available Recovery Act
funds. Census recently announced its plans to return $1.6 billion to the Treasury. Census’s
financial management reports show a surplus of nearly $1.9 billion. Approximately one-half
(about $800 million according to Census) was related to unused contingency funds, while the
remaining amount points to problems discussed in previous OIG reports—the bureau’s inability
to adequately estimate costs that, in conjuction with the lack of integrated systems, limits
effective program management.

Difficulties in estimating costs have hampered the bureau’s ability to measure cost, schedule, and
performance in an integrated way to support the entire decennial in relation to its plans for all
individual operational life-cycle components. As we previously reported, the Address
Canvassing operation overspent its $356-million budget by $88 million (25 percent). NRFU, the
largest and most expensive field operation of the 2010 Census, was initially estimated to cost
$2.7 billion. Following Address Canvassing, the budget was reevaluated and projected to cost
$2.3 billion (estimates ranged from $1.9 and $2.8 billion). The actual cost fell outside the lowest
parameter of the range at $1.7 billion.

Similarly, Census underspent its FY 2009 and overspent its FY 2010 Recovery Act funding. The
Recovery Act provided the Census Bureau with $1 billion—$250 million to improve
communications and outreach and $750 million to fund early operations—for the 2010 Census.
Over $3 million in unused FY 2009 funds were spent in FY 2010.

Although Census’s Overall Spending Is Under Budget, it Lacks Transparency

According to the Census Bureau, it spent approximately 25 percent less than planned for the
fiscal year ending September 30, 2010 (see table 1). Table 1 further shows a monthly variance
ranging from 48 percent under budget to 51 percent over budget when comparing actual vs.
budgeted monthly spending. Census stated that its financial management reports do not reflect
true surpluses and deficits. Only the month in which the financial management report is issued
shows the month’s performance. Surplus funds from previous months are often re-planned for
another purpose in the latter month and are no longer visible in subsequent reports. The fact that
Census changes its plans retroactively makes it difficult to plan and manage project funds as well
as from an oversight perspective, to monitor budget overruns and underruns across several
months. This spending includes funds for nearly 300 individual projects, each with its own
project manager and numerous cost categories. The monthly status reports for September show
that cumulative expenditures were lower because of salaries, mileage, and training costs not
incurred and obligations that were delayed. As of September 30, 2010, then, the bureau had spent
nearly $5.5 billion of the budgeted $7.4 billion.



                                           Page 4 of 26
                     OIG Quarterly Report to Congress, January 2011


                                       Table 1.
        Comparison of 2010 Annual and Cumulative Budget to Actual Costs, FY 2010
                                                   ($ in millions)
                                                       Monthly
                                                   Variance: %
                              Monthly                    Under    Cumulative     Cumulative                      %
                  Monthly      Actual    Monthly         (Over)    Budgeted         Actual      Cumulative    Under
                         a                                                 b
    Month         Budget     Spending   Variance        Budget     Spending       Spending        Variance   Budget
    October       $ 465       $ 460        $   5             1       $     465      $     460        $  5        1
    November         534         366        168             31             924            825          99       11
    December         315         164        151             48           1,164            989         175       15
    January          358         293          65            18           1,469          1,282         187       13
    February         322         258          64            20           1,681          1,540         141        8
    March            540         579        (39)           (7)           2,285          2,119         166        7
    April          1,017         816        281            8.1           3,002          2,824         178        6
    May            2,037       1,137        900             44           4,213          3,961         252        6
    June             739         548        191             26           5,301          4,509         792       15
    July             664         460        204             31           5,285          4,969         316        6
    August           354         221        133             38           5,434          5,190         244        4
    September        176         267        (91)          (51)           7,308          5,457       1,850       25
    a
     Annual operating budget as presented in the October 2009 Financial Management Report
    b
     As revised between November 2009 and September 2010 and reported in the monthly status reports.
    Source: U.S. Census Bureau



Analysis of Travel and Training Costs Reveals Some Inefficiencies

Various Census operations took place from January through August 2010. During this period,
more than 700,000 temporary Census employees traveled 568 million miles in private vehicles,
for which they were reimbursed $284 million. In addition, employees were given one week of
paid training prior to performing fieldwork. However, in some cases they completed little or no
fieldwork. The issues regarding travel and training were discussed and recommendations made
in a previous OIG report but were not sufficiently addressed.

Specifically, we warned of the multiplied effect from NRFU if Census did not act:

            While the number of employees with questionable reimbursements is very small
            compared with the overall universe of 140,000 employees involved in this operation, the
            potential exists for this problem to be compounded because upcoming field work
            operations will involve significantly more temporary employees than did Address
            Canvassing. Census Bureau managers should monitor mileage reimbursements carefully
            during upcoming enumeration operations, and verify the validity of those reimbursement
                                                               3
            claims that appear excessive before they are paid.




3
    2010 Census: Quarterly Report to Congress, February 2010 (OIG-19791-3, February 2010).


                                                    Page 5 of 26
                     OIG Quarterly Report to Congress, January 2011

Census’s decennial personnel and payroll system did provide management reports to assist
managers in monitoring mileage and other reimbursable expenses. However, given the problems
we uncovered, we believe that, for the 2020 decennial, Census should strenghten its internal
controls over wage and travel costs; further, it should take steps to ensure that an appropriate
number of temporary employees are hired and trained.

Ratio of miles driven per hour to hours worked. Using bureau data, an analysis of payroll
records for more than 700,000 temporary employees from January 3 to August 7, 2010, indicated
that less than 1 percent (some 20,300 employee pay periods) had spent an estimated
75 percent or more of reported work hours driving (at 50 mph). Yet the total mileage cost of
these suspicious claims was over $5 million (2 percent of the total mileage reimbursement).
Although it is possible that a few workers at each local Census office acted as couriers, thus
accruing higher than normal mileage expenses, we find it unlikely that they accounted for the
entire $5 million in excessive mileage costs (see table 2).4

                                          Table 2.
              Estimated Percentage of Temporary Census Employee Work Time
                         Spent Driving, January 3–August 7, 2010a  
                                           Employee Pay Periodsb                                  Mileage Cost
More than 100%                                            3,155                                    $ 640,400
90%-100%                                                  3,915                                      1,168,640
75%-89%                                                  13,242                                      3,552,208
  Subtotal                                               20,312                                    $5,361,249
0-74%                                                 3,887,048                                  $278,395,156
     Total                                                 4,907,360                             $283,756,405
a
 Not all totals add due to rounding.
b
 Number of employees times number of pay periods worked; for example, 20 employees working 25 pay periods
 each would equal 500 employee pay periods.
Source: OIG analysis of Census data


Training costs. Census trained several thousand employees who either did no work or worked
fewer than 3 days (we considered employees trained if they received at least 24 hours of
training). Census deliberately hires and trains more temporary employees than necessary to
offset turnover; the bureau calls this practice “frontloading.” The problem with this, however, is
that it frequently resulted in many more enumerators than needed.

Between January 3 and August 7, we estimate that Census trained 74,000 employees (see table
3) who worked fewer than 3 days or not at all. While this constituted less than 2 percent of the
total number of employees hired, these employees were nonetheless reimbursed nearly $5
million for mileage, above and beyond the more than $32 million worth of training received.




4
    Training hours were excluded from this calculation because Census workers are sometimes required to travel long
    distances to training sites.


                                                    Page 6 of 26
                  OIG Quarterly Report to Congress, January 2011


                                       Table 3.
       Analysis of Costs Related to Training of Temporary Census Employees,
                              January 3–August 7, 2010
                             (Working 3 Days or Fewer)
Employees who                                          Training-related            Other
received training      Number of           Training            Mileage     Reimbursement
                                                                                        a
but                    Employees           Earnings    Reimbursement                         Total Cost
Did not work                10,858       $ 4,883,655        $ 384,474            $ 34,456   $ 5,302,584
Worked, but less
than 1 day                  27,504        11,813,006           1,420,202          51,546     13,284,754
Worked between 1
and 3 days                  35,440        15,488,490         2,893,123            78,635     18,460,248
  Total                     73,802       $32,185,151        $4,697,799          $164,637    $37,047,586
a
 Such as telephone calls and per diem.
Source: OIG analysis of Census data


If the Census Bureau had acted on previous OIG recommendations, it might have been able to
save some of the $42 million ($5.3 million in mileage from table 2 and $37 million from table 3)
it spent on training costs and mileage reimbursement, from which it received little benefit.




                                                Page 7 of 26
                 OIG Quarterly Report to Congress, January 2011

                                       Chapter 2:
                     Office of Inspector General Field Observations

PBOCS’ Instability During Census Field Operations Increased Cost and May Have
Negatively Affected Data Quality

PBOCS was integral to managing data collection and quality control for 10 discrete enumeration
operations, including the largest, NRFU. But PBOCS’ instability and unreliability necessitated a
series of replacement applications for key functions, some at the last minute. Because of the
problems with PBOCS—during NRFU and other field operations—Census was forced to work
in what can best be described as crisis management mode, repairing technical problems and
developing clerical workarounds and automated contingencies in real time to compensate for the
loss of PBOCS’ functionality. As a result of this substantial effort, Census was able to complete
NRFU on time, but not without increased costs and potential data quality issues. Excess costs
due to PBOCS amounted to a total of $11.6 million for all field operations (see table 4).


                                         Table 4.
                  Costs Directly Attributable to Activities Necessary to
                            Compensate for PBOCS Failures
                                                                                               Cost
Activities Compensating for PBOCS Failures                                            (in millions)
Addition of computer equipment to improve system performance                                  $ 4.9
Consultation with vendors of PBOCS technology                                                   1.1
Development and maintenance of replacement shipping application                                 0.1
100% re-interview of Field Verification cases                                                   2.5
Overtime pay (clerks)                                                                           3.0
 Total                                                                                       $11.6
Source: U.S. Census Bureau


Census also decided to deploy an independent replacement application for the last operation,
Field Verification, freeing PBOCS developers to provide technical support for NFRU and the
succeeding operation, Vacant Delete Check. The risk of this late change in the decennial
schedule was somewhat mitigated because the replacement application was built using
components of existing, proven Census systems. Functionality was also added to PBOCS for a
new operation, NRFU Residual, which required visits to over 729,000 respondents whose
questionnaires were either sent in late but lacked a count of residents or the enumerator did not
enter such a count.

PBOCS development started late in the decennial cycle, partially due to a late change in plans
from using handheld computers to using paper for collecting NRFU respondent data. With
population counts for apportionment due to the President by December 31, 2010, the schedule
for decennial operations was fixed, forcing Census to develop, test, and deploy individual
increments of PBOCS functionality just before they were needed in each field operation. The


                                           Page 8 of 26
                  OIG Quarterly Report to Congress, January 2011

inevitable result of this just-in-time approach was that PBOCS functionality was incomplete, and
a series of errors was encountered as the system was deployed in actual operations.

PBOCS’ technical problems continued during NRFU. PBOCS continued to be the most
unreliable decennial system during NRFU. At peak usage, local offices reported five times the
number of complaints about PBOCS as for any other decennial system (see figure 1). The most
frequent complaint concerned checking in questionnaires that enumerators had returned to the
local offices. Questionnaires are checked in to ensure that all questionnaires sent out into the
field are returned, and that the appropriate data had been entered on each questionnaire before
shipping them to the data-capture centers. Office clerks had difficulty checking in questionnaires
primarily because PBOCS’ availability was limited due to unacceptably slow performance or
complete outages.

Total PBOCS outages during NRFU amounted to nearly 80 hours, mostly in May, the first
month of the operation. Outages and slow performance caused a large backlog of over 10 million
questionnaires awaiting check-in, which delayed the NRFU-Re-interview operation.

                                      Figure 1.
                     Count of IT Help Desk Requests (Per Week)

                                                            Paper‐based Operations 
   2500                                                     Control System (PBOCS)

   2000                                                     Other IT Systems and 
   1500                                                     Resources (data is only 
                                                            available through July 31)
   1000

    500

       0




 Source: U.S. Census Bureau


The Census technical staff, with assistance from industry consultants, determined that PBOCS’
performance could not be improved without disrupting operations because of fundamental
database problems. Only three clerks per local Census office could use PBOCS simultaneously
without bringing it to a standstill, which was not enough to both check in completed
questionnaires and then check out questionnaires for shipping to Census’s data collection
centers. The bureau’s replacement application for shipping was deployed on May 22; PBOCS
performance eventually stabilized, outages decreased significantly, and the backlog was reduced
and finally eliminated.


                                          Page 9 of 26
                                    OIG Quarterly Report to Congress, January 2011

PBOCS instability led to increased cost. Overall cost due to PBOCS problems amounted to
$11.6 million, with $8.6 million attributed to troubleshooting and implementing solutions, and at
least another $3 million in overtime pay (see table 4). Our analysis showed that overtime pay
correlated closely with operational outage hours5 (see figure 2). PBOCS outages totaled 290
hours—more than 7 weeks of 8-hour shifts since the beginning of operations in January through
the first week of August.

The costs resulting from PBOCS problems continued to mount. In Field Verification, to
minimize the risk of using a replacement system, local offices were required to re-canvass 100
percent of cases (rather than the original 80 percent) to achieve the desired level of data quality.
According to a bureau official, re-canvassing an additional 61,000 addresses increased the cost
by an estimated $2.5 million. The cost of Census employees devoted to contingencies and other
support work, such as additional checks of data accuracy due to PBOCS issues, are not included
in this $11.6-million total.


                                                    Figure 2.
                                Operational Outage Hoursa Compared Against Clerk
                                    Overtime Pay in the Following Pay Period
                          1600000                                                                                    70




                                                                                                                           Operational Outage Hours
     Clerk Overtime Pay




                          1400000                                                                                    60
                          1200000                                                                                    50
                          1000000                                                                                    40
                           800000
                           600000                                                                                    30
                           400000                                                                                    20
                           200000                                                                                    10
                                0                                                                                    0




                                          Clerk overtime earnings        Operational outage hours


    Source: U.S. Census Bureau
    a
      This figure shows that PBOCS outages in one week affected the amount of overtime billed in the following week. The data
      in the chart correspond to the dates of outages as shown by the red line. The increase in overtime billing as shown by the
      blue line does not correspond to the dates in the chart, but occurred the week following the corresponding outages.



In addition to Field Verification, PBOCS caused delays that adversely affected the NRFU
quality control operation. The NRFU quality control operation entailed reinterviewing 5.5
percent (1.9 million questionnaires) of the eligible NRFU workload.6 Reinterview cases were
selected by PBOCS as NRFU questionnaires were checked in. A second interviewer was

5
  Using regression analysis, we found the results to be statistically significant at the 1 percent level (p<.01). The
  model controlled for autocorrelation and total workload.
6
  Eligible NRFU cases excluded mainly vacant and delete cases, which were followed up in the Vacant Delete
  Check operation.


                                                            Page 10 of 26
                      OIG Quarterly Report to Congress, January 2011

dispatched to the same address to replicate the enumeration and the results of the re-interview
were compared against the original responses to validate the information and assess the quality
of an enumerator’s work. The process was designed so that enumerators found to have
completed questionable work could have received additional training or been terminated for poor
performance (including questionnaire falsification).

As the backlog of questionnaires grew, cases could not be selected for reinterview, increasing the
time lag between the original and follow-up interviews. This time lag can adversely affect the
quality of the data collected in the follow-up interviews because the more time that elapses, the
less reliable the respondent’s memory of what was initially reported. And the slow pace of
identifying addresses to re-interview delayed the bureau from retraining or removing
enumerators performing questionable work.

During the NRFU operation, PBOCS was also designed to support two ongoing decennial
operations: Group Quarters Enumeration and Update/Enumerate. Because of PBOCS’ instability
and unavailability, Census decided to postpone using it for these operations and limit use of the
system to NRFU. As a result, the U/E quality control operation was delayed; originally
scheduled to end June 9, it was not completed until July 1. Similar to the NRFU reinterview
process, the delay adversely affected the quality control operation.


OIG Oversight of the 2010 Census Continued with NRFU and VDC Operations

NRFU, the largest and most expensive field operation of the 2010 Census, officially ran from
May 1 through July 30.7 This operation consisted of two components—the production process
and a quality control (QC) procedure known as the reinterview (NRFU-RI)—and was carried out
by 475,000 temporary workers nationwide. Vacant Delete Check (VDC), the next major
operation following NRFU, sought to verify the status of housing units listed as vacant or
nonexistent during NRFU. This operation was carried out between July 1 and August 25 by
nearly 130,000 temporary staff. Table 5 (page 12) shows the costs involved with both operations,
including enumerator training, production work, and mileage reimbursement.

To oversee these two operations, OIG staff visited 39 local Census offices in 30 states during
NRFU and 17 offices in 16 states during VDC from mid-April through late July (see Appendix
B). We visited offices in all 12 Census regions to interview office managers and observe
enumerators carrying out door-to-door interviews. For NRFU, OIG staff conducted 227
observations, visiting 2,751 housing units. We observed enumerators successfully completing
799 questionnaires through interviews with household members or proxies. The remaining visits
included 136 respondent refusals and 1,816 housing units where no one answered the door. For
VDC, we conducted 64 observations, visiting 460 housing units. We observed the verification of

7
    NRFU began in April in some areas to enumerate university students at off-campus housing units before they left
    for summer break. According to Census, 493 of 494 offices completed NRFU prior to the scheduled completion
    date of July 10, 2010. The remaining office located in the New York City area did not finish until July 30 because
    staff had to re-enumerate several thousand questionnaires because of an allegation of questionnaire falsification as
    discussed on page 23 of this report.


                                                     Page 11 of 26
                     OIG Quarterly Report to Congress, January 2011

93 vacant and 74 deleted housing units and the enumeration of 61 households, with the
remaining 242 housing units not enumerated because no one was home.

                                               Table 5.
                                  NRFU and VDC Costs and Workload,
                                  Estimated and Actual ($ in millions)a
                                                                                 Estimated           Actual
        Operation                           Budgetb        Actual Cost          Workloadc,d       Workloadc
        NRFU Production                       $2,248             $1,589                  48.6           47.2
        NRFU Reinterview                          94                  95                  2.7             1.9
        NRFU Total                            $2,342             $1,684
        VDC                                     $244               $281                   8.5             8.7
        a
          Figures have been rounded.
        b
          The original FY 2010 budget request for NRFU was $2.7 billion; for VDC, $341 million.
        c
          Housing units
        d
          Workload figures derived from Census weekly status report issued May 7, 2010.

        Source: U.S. Census Bureau



Some enumerators did not follow important procedures. In both NRFU and VDC, we
observed procedural deviations from the enumerator training in three areas: notices of visits,
questionnaire scripts, and contacting proxy8 respondents. It is impossible to tell exactly what the
effects of such noncompliance were, but our objective was to report problems to Census officials
in real-time to enable corrective actions to be taken. For both operations, enumerators were
required to fill out and leave Notice of Visit forms, to inform a respondent that an enumerator had
visited the household while no one was home. These notices provided an enumerator’s contact
information and requested a call back from the respondent to schedule a time to complete the
questionnaire. During NRFU and VDC, we observed enumerators not properly completing these
forms. Enumerators left out information identifying a household or wrote down the wrong
information, making it difficult for an enumerator to find the correct questionnaire if a
respondent called back. During VDC, we also observed enumerators leaving notices in places
such as car windshields and in mail boxes, both of which were against Census procedures. In
other cases, enumerators failed to leave notices at all.

During NRFU, enumerators did not read their interview scripts verbatim, despite being required
and trained to do so. Some enumerators did not fully read several questions from the
questionnaires during interviews, in particular those asking about Hispanic origin and race. In
some cases, enumerators made assumptions about household members regarding race and
Hispanic origin rather than asking respondents directly. Further, enumerators searched Internet
sources to find respondent and proxy information. Among the sources used were online



8
    A proxy interview is one in which the respondent is not a member of the household being enumerated. The
    respondent might be a neighbor or some other knowledgeable person.



                                                    Page 12 of 26
                      OIG Quarterly Report to Congress, January 2011

directories, government Web sites, and online real estate sites. Census procedures did not include
guidance on the use of online resources to search for respondent or proxy information.

During VDC, enumerators used proxies to complete questionnaires prior to making the required
three personal attempts to visit a housing unit. The household resident is always the best source
of information; however, Census procedures allow enumerators to obtain limited information
from persons such as neighbors. By using proxies before the three personal attempts were made,
enumerators could have received incorrect or incomplete information about a household when
the actual resident could have provided more accurate information had the enumerator made a
second or third attempt to interview him or her.

Respondent reluctance affected VDC production. Census employees encountered respondent
reluctance during VDC. VDC enumerators often encountered households that were uninhabited,
those in which residents were unwilling to participate, or rural households that were miles away
from each other. They therefore had a difficult time locating not only willing respondents but
also viable proxies who were knowledgeable about the household in question when a household
member could not be reached. During VDC, “fatigue” from being questioned repeatedly during
multiple Census operations hindered participation. In large apartment complexes with high
turnover, site managers (for example, superintendents) were typically the only knowledgeable
proxies for multiple vacant addresses. Often these complexes were split into several blocks and,
in turn, several assignment areas, which were not always assigned to the same enumerator.
Because of this split, apartment managers were repeatedly contacted by multiple enumerators
throughout NFRU and VDC to determine the status of vacant housing units. Often the managers
refused to provide information to enumerators who were not the first to make contact.

The quality of Census’s maps could be improved. Census maps are critical to locating housing
units during enumeration; they are essential for confirming the specific block and geographical
units. Without them, enumerators cannot reliably ensure that the unit in question is indeed the
one they want and is in the expected location. The quality of these maps, then, must be a primary
focus. Many local Census office managers identified the following problems with the maps and
address lists used during the NRFU and VDC operations:

       •   missing neighborhoods or apartment buildings,
       •   incorrect housing unit numbers and street names,
       •   duplicate addresses,
       •   inaccurate or missing map spots, and
       •   housing units located in the wrong collection blocks.9

Office managers attributed these issues to problems identified during Address Canvassing, such
as listers failing to follow procedures or not having an accurate global positioning system (GPS)
signal. Enumerators in both operations concurred with their managers’ assessment about the
quality of maps, reiterating the same issues. As a result of poor map quality, some enumerators

9
    According to the Census Bureau, a collection block is the smallest geographic area within which Census
    enumeration operations are conducted and is usually bounded by visible features, such as streets or rivers.


                                                     Page 13 of 26
                OIG Quarterly Report to Congress, January 2011

in both operations did not use the Census maps and instead used alternate maps, a GPS device,
the Internet, or their personal knowledge of an area to find the housing units.

PBOCS Delayed Completion of the Update/Enumerate Operation and Forced Changes
to the Quality Control Operation

Since Update/Enumerate (U/E), a doorstep interview, was the main method by which residents
of American Indian reservations could participate in the census, we reviewed both its production
and quality control components. Every local Census office we visited that handled U/E spoke of
delays due to PBOCS problems; “U/E is on the back burner” was a common refrain. Because of
PBOCS issues, the quality control segment of this operation did not progress as planned. Without
PBOCS, Census could not monitor the workload, allocate staff, or complete assignments in a
timely manner.

PBOCS was intended to assist U/E in ways similar to other operations: printing assignment
materials, checking materials out to the field and back into the office, managing individual cases,
making quality control assignments, shipping materials to data-capture centers, and providing
reports for managing the operation. But PBOCS’ downtime, slowness, and limited usage,
especially when gearing up for NRFU, caused a backlog of questionnaires waiting to be
checked-in.

According to bureau officials, management was
concerned about PBOCS’ ability to handle the much                   Table 6. Update/Enumerate
larger NRFU operation, and therefore decided to limit                  Completion Data from
the use of PBOCS for U/E. Since the U/E quality control                  May Weekly Report
field assignment workflow depended on the timeliness of                       Expected
questionnaire check-in from production, some of these                                QC     Actual QC
                                             assignments         As of     Completion Completion
  Contingency instructions to the field:     were severely       May 3              40%          18%
  “The biggest change for the [canvassing]   delayed.            May
  component of UE QC is that the number      Weekly reports 10                      47%          27%
  of units that are checked … will no longer throughout          May
  be variable based on the total number of
                                             May showed          13                 62%          27%
  addresses in an AA [assignment area].…
  Each AA will have a maximum of three       quality control     May
  (3) HUs [housing units] checked.”          running             23                 76%          31%
                                             significantly       Source: U.S. Census Bureau
  Source: U.S. Census Bureau                 behind,  completing   only 31 percent as of May 23 (see
                                             table 6). Further, the bureau decided that it would
complete the remaining 69 percent of the quality control component without the operational
products or progress data provided by PBOCS.

Without PBOCS to generate and monitor quality control assignments, by early June the bureau
had limited the number of housing units to be checked for larger assignment areas (see box) and
required manual tracking of the operation’s progress. In addition, the delays and workarounds
increased opportunities for error. For example, our subsequent review of assignment area binders


                                           Page 14 of 26
               OIG Quarterly Report to Congress, January 2011

used by enumerators to manage their workflow reflected the enumerators’ inability to check for
housing units missing from the address list.

The June 11, 2010, Census status report stated that the operation missed its scheduled completion
date of June 9. As of June 4 (the operation does not appear on subsequent weekly reports),
quality control had cost only 37 percent of its $35 million budget, and the overall operation had
cost 45 percent ($56 million) of U/E’s total budget of $124 million. U/E’s 1.4 million cases
included seasonal dwellings and Colonias (small, unincorporated communities along the
Texas/Mexico border), in addition to reservation housing. Census had to check 32,600
assignment areas for missing and correctly deleted housing units, and a sample of housing units
were reinterviewed to check individual enumerator performance. The culmination of these events
raises concerns about this enumeration operation, in particular the thoroughness of the quality
review.




                                         Page 15 of 26
                     OIG Quarterly Report to Congress, January 2011

                                    Chapter 3:
              Growing Concerns About the Safety of Census Employees and
                    Update to Bureau Risk Management Activities

Substantial Number of Threats and Attacks Against Census Workers Calls for
Meaningful Strengthening of Protections

The Census Bureau conducts numerous household surveys throughout the decade, not just the
decennial census. As such, its various field representatives—not just enumerators—interact with
the public on a continuing basis. At the same time, necessary confidentiality restrictions
contained in Title 13, Section 9, of the U.S. Code are aimed at ensuring that Census employees
do not (1) disclose information furnished by respondents or other data obtained during survey
collection to non-sworn10 persons outside the bureau, or (2) use the Title 13 information for any
purpose other than the statistical purpose for which it was supplied. Title 13 contains serious
sanctions against those who violate these restrictions. It is clear through enumerator reports
(incident reports and information communications [INFO-COMMs]), the number of documented
situations in which Census Bureau representatives may be threatened or harmed is troubling.

Incident reports provide information related to employee safety. Census used incident
reports to officially document specific instances
of injury, illness, accident, or fatality.                              Table 7.
                                                                                                  a
Information from some of these is also discussed Threats Against Census Enumerators
in this section. While infrequent, serious        Category                                   Number
incidents including homicide,
robbery/carjacking/kidnapping, and auto           Assault (Physical, Verbal)                    322
accidents (fatal and nonfatal) were reported.     Weapon Threat (Gun, Other)                    252
More frequently reported incidents are reflected
in table 7, which lists the six most common       Animal Attack                                  43
incident types (totaling 693) caused by
                                                  Phone/Web Threat                               41
respondents against Census enumerators. But
such reports cover activities broader than        Gun Shots                                      18
violence alone. These reports also documented
19 cases in which a non-Census employee           Sexual Assault                                 17
impersonated a Census enumerator. The                Total                                      693
fraudulent impersonation of Census enumerators
                                                  a
is a great concern, as it could prevent             As of August 17, 2010
respondents from participating in the survey or   Source:  U.S. Census Bureau Incident Reports
result in fraud or identity theft.

In some of these cases of suspected impersonation, respondents referenced a Census-identified
employee with a laptop computer who conducted a more in-depth survey. This may have been an

10
     Individuals who have not been sworn to uphold the confidentiality provisions of Title 13 and signed affidavits to
     that effect.


                                                     Page 16 of 26
                     OIG Quarterly Report to Congress, January 2011

actual Census employee conducting a separate, non-decennial survey. However, due to lack of
communication from Census or misunderstanding by respondents, those respondents who were
selected to complete this more detailed survey often hesitated or refused to cooperate with the
Census enumerator during NRFU. Census office managers raised similar concerns to us. For the
future, Census should consider how it can improve its communication with respondents selected
for a non-decennial survey while the decennial is operational, to avoid confusion and minimize
refusals.

Other threats or attacks were documented in INFO-COMMs. Census employed a paper form
called an INFO-COMM to document anomalous situations that census field workers encountered
during the conduct of their duties. In our site visits to local Census offices during NRFU and
VDC, we examined a nonrepresentative sample of INFO-COMMs that were available, collecting
over 1,000 examples11 completed by Census representatives in the field. These INFO-COMMs
provided good snapshots of actual encounters with the public including a substantial number of
threats. Figure 3 contains a breakdown of the “refusal” category—the 474 refusals out of the
1,034 INFO-COMMs reviewed—into six subcategories; these illustrate the challenges and
difficulties enumerators face, including housing units considered unsafe to enumerate and threats
or attacks. Combining the
subcategories “Respondent Refusal,”
“Refused but Provided Headcount,”                                    Figure 3.
and “Proxy Refusal” accounts for 57                   Subcategories for Refusals (474)
percent of respondent refusals. While
such refusals are usually nonphysical,
they typically involved the respondent                                       Respondent Refusal
refusing in an aggressive manner and                                         (203)
often included yelling at, cursing, or                                       Refused but Provided
slamming the door on the enumerator.               32%                       Headcount (48)
                                                                          43%
                                                                                      Proxy Refusal (18)
The “Unsafe to Enumerate”
designation was employed for housing
                                               3%                            Refused with Threat
units with dangers such as suspected                                         (39)
drug house, unleashed dog in a yard,              8%
gun being pulled on enumerator,                        4%   10%              Refused and Attacked
                                                                             (15)
sexual advances from a respondent, or
warnings from neighbors that                                                 Unsafe to Enumerate
residents may be too dangerous. The                                          (151)
                                               Source: OIG
“Refused with Threat” subcategory
defined cases of respondents not only
refusing but also verbally threatening
to either shoot, release their dog(s) to attack, or physically harm either the current or a follow-up
enumerator. In such situations, INFO-COMMs served as a


11
     We examined INFO-COMMs relating to various areas of interest. Those pertaining to enumerator safety were
     specifically selected to support our interest and concern for the safety of enumerators, and should not be
     considered reflective or representative of all INFO-COMMs.


                                                   Page 17 of 26
                OIG Quarterly Report to Congress, January 2011

useful tool for offices to document these addresses and prevent follow-up or future attempts for
enumeration during the decennial.

The subcategory “Refused and Attacked” includes cases in which enumerators were actually
physically attacked by a respondent, gunshots were fired nearby, dogs were released onto an
enumerator, respondents would not call their dogs off an enumerator, or an enumerator was
chased by the respondent in his or her car. Enumerators experiencing such attacks sometimes
incurred damage to their clothing or vehicles and in some cases required medical treatment.

Title 13 does not explicitly address field staff safety. Although other laws such as Title 18
make it a crime to harm federal employees, Title 13 does not more specifically address assaults,
threats, and other criminal conduct directed towards Census staff. Further, Title 13
confidentiality provisions criminalize the disclosure of Census data in most instances. Our
review of the Census INFO-COMMs and incident reports indicated that not all threats and other
criminal conduct directed at enumerators generated either a formal review (incident report) or an
enforcement action. There have been inconsistent interpretations as to whether Census
confidentiality requirements limit the use of evidence in criminal prosecutions of individuals
who harm enumerators or who commit other crimes, such as the falsification of Census data by
enumerators (see Chapter 4 for a discussion of employee misconduct in Brooklyn).

Given the importance of the safety and well-being of Census employees, we suggest that the
Census Bureau, the Secretary, law enforcement agencies, and the Congress explicitly address
enumerator safety. A review of Title 13 and other laws associated with data collection and
federal employee safety is necessary to determine the legislative and/or agency action that will
best protect Census employees collecting information at the doorstep. A complete solution
must—while continuing to strongly protect the confidentiality of respondent information—
clearly authorize the use of such Title 13 information in the limited situations where it is needed
to protect Census employees and for the investigation and prosecution of crimes committed
directly in connection with the Census.

Census’s Risk Management Activities

Census’s Risk Review Board (RRB)—a subgroup of the Census Integration Group—continued
to oversee risk management activities and modify its risk register. As of September 29, 2010, the
register contained 18 program-level risks, with each rated high (likely), medium (somewhat
likely), or low (unlikely)—colored red, yellow, or green, respectively. To comply with the
requirements of its risk management plan, the RRB continued to hold monthly meetings to
review the status of each risk rating on its register. The RRB also completed mitigation plans for
the risks opened in April 2010. However, importantly, the board made little progress in finalizing
outstanding contingency plans. While such plans at this time are less relevant with enumeration
operations completed, the fact remains that the board’s inability to prioritize the completion of
two remaining contingency plans—especially with one of the risks rated high throughout the
major decennial operations—was of serious concern.




                                           Page 18 of 26
                       OIG Quarterly Report to Congress, January 2011
Weekly Risk Review Board meetings steadily decreased. The RRB’s weekly meetings
steadily decreased throughout the calendar year, as displayed in figure 4, with only 12 out of 38
possible weekly meetings being held from January through September of this year (no meetings
were held during June, July, or August).12 Although there may have been more work during the
planning phase when most mitigation and contingency plans were developed and finalized than
the monitoring phase of the risk review process, two contingency plans were not finalized. These
two plans were “Within Household Person Over-Coverage and Under-Coverage,” a medium
risk, and “Falling Behind Schedule on Key Milestones,” until July 2010 a high-level risk.
However, the RRB continued to hold monthly meetings to review and update the status of each

                                                 Figure 4.
                                      Weekly RRB Meetings Held in 2010


       6

       4

       2
                                                                         0          0          0
       0
             January    February   March       April      May         June       July     August September


                                         Weeks Per Month         Meetings Held
     Source: OIG


program-level risk. Table 8 reflects the changes made at the monthly and weekly meetings since
the quarter ended March 31, 2010. The monthly meetings have been useful for the board, as most
risk status changes have been made at those times. Overall, the risk register—with the recent
closed and opened risks—appears to reflect Census’s current risk environment with enumeration
operations completed.




12
     February only included three possible weekly meetings due to inclement weather that caused federal government
     closures.


                                                   Page 19 of 26
                   OIG Quarterly Report to Congress, January 2011

Table 8. Program-level Risk Ratings, as of September 29, 2010,
Indicating Changes from the Previous Quarter

                                                                                 March    September
Risk Grouping        Risk Name
                                                                                 2010       2010

                     Contract management issues                                   High     Low
 Operations and      Late design changes                                          High    Medium
 Systems Risks       2010 operational and systems failures                        High    Medium
                     FDCA decentralization/reintegration                          High     Low
                     Housing unit duplicates and misses                           High    Medium
                     Exception enumeration quality                                Low      Closed
  Quality Risks      Inaccurate Puerto Rico address list                         Medium    Closed
                     Data quality                                                Medium   Medium
                     Within-household person over-coverage and under-
                                                                                 Medium   Medium
                     coverage
                     IT security breach                                          Medium     Low
                     Loss of confidential data affecting response                Medium    Closed
     Public          Respondent cooperation                                      Medium    Closed
Cooperation Risks
                     Stakeholder support                                         Medium    Closed
                     Immigration policy backlash                                 Medium    Closed
 Major Disasters     Major disaster's effect on population                        High     Closed
    Affecting        Continued operations of critical infrastructure during
  Population                                                                     Medium   Medium
                     disasters
                     Permanent staff retention                                    Low       Low
  Staffing Risks
                     Inability to recruit sufficient temporary workforce          Low      Closed
                     Uncertainty of assumptions in cost model                    Medium     Low
                     Insufficient funding                                        Medium    Closed
  Budget Risks       Insufficient funding FY 2011a                                          High
                                                    a
                     Insufficient funding FY 2012                                           High
                                                    a
                     Insufficient funding FY 2013                                           Low
    Schedule         Falling behind schedule on key milestones                    High    Medium
                     H1N1 influenza affecting regional census centers and
                                                                                 Medium    Closed
                     local census offices activities
                     H1N1 influenza and similar contagious illnesses affecting
                     non-regional census centers and non-local census            Medium     Low
     Not Yet         offices activities
   Categorized
                     Litigation that threatens the delivery of apportionment
                                                                                  High    Medium
                     and redistricting data
                    Litigation that forces reprocessing and/or retabulation of
                                                                                          Medium
                    apportionment and/or redistricting dataa
a
  Risk was opened after March 31, 2010.
Source: U.S. Census Bureau




                                              Page 20 of 26
                               OIG Quarterly Report to Congress, January 2011

                                                 Chapter 4:
                                     Summary of Other OIG Census Reviews

Review of DRIS-Incurred Labor Costs

The primary purposes of the Decennial Response Integration System (DRIS) contract were to
(1) process Census forms through three Paper Data Capture Centers (PDCCs), and (2) provide
inbound and outbound telephone service. To accomplish this, the Census Bureau awarded a
contract to Lockheed Martin and six main subcontractors in October 2005 for $485 million.
Census organized the contract into three phases that roughly corresponded to the design,
operation, and archiving of information. Census modified the contract prior to starting each
phase to identify and task the scope of work to be accomplished. As of June 30, 2010, the
contractor had nearly completed phase II of the contract requirements and reported $343 million
in incurred direct labor costs.

We conducted a limited review of the incurred labor costs from October 2005 through June 2010
and determined that the costs incurred were consistent with the parameters in the contract. While
reviewing the contract files we found that Census accepted and awarded a modification for phase
II, costing $264 million, and the contracting officer did not retain essential documentation as part
of the contract file to support the contracting officer’s price reasonableness decision. As a result,
we cannot say whether Census received best value for its expenditure.


                                                   Figure 5.
                                           Actual Forms Scanned v.
                                       Planned Forms Scanned (weekly)
                                                                                     Actual Scanned
                          14
                                                                                     Planned Scanned
     # of Forms Scanned




                          12
         (in Millions)




                          10
                           8
                           6
                           4
                           2
                           0




                           NRFU Operations Begin 5/1             Shipping Workaround 5/22




                                                       Page 21 of 26
                                          OIG Quarterly Report to Congress, January 2011

Our review took place, however, when contractor staff had begun to be reassigned. The
contracting officer had stated that as part of surveillance, periodic audits on the contractor would
be performed. However, we saw no evidence that the contracting officer’s representatives
performed and documented any checks on the staff during execution of the contract. The only
documentation we identified was related to integrated process team meetings. Audits on a
contract of this size should have included periodic on-site inspections earlier in the process.

We did not identify any significant issues with the PDCCs’ handling of the unexpected volumes
and erratic delivery of forms to be scanned during NRFU. The local Census offices had
significant difficulties shipping questionnaires in a timely manner to the PDCCs during NRFU
due to breakdowns in PBOCS; this resulted in days of unexpected downtime at the PDCC from
mid-April onward (see figures 5 and 6). On May 22, the shipping functionality was moved from
PBOCs to another management system because of the negative impact on shipping. Under


                                                           Figure 6.
                                                   Actual Forms Scanned v.
                                     5
                                     8 
                                                Planned Forms Scanned (daily)
 # of Forms Scanned (in Millions) 




                                     4       NRFU Operations Begin    Shipping 

                                     3                                            Extra Work 
                                                                                  Completed Prior to 
                                     2

                                     1

                                     0




Source: DRIS Contractor Data



Census direction, DRIS contractors revised the overall staffing plans to compensate for some
unproductive hours. Even with these adjustments, the contract stayed within budget during this
period and continued to meet key performance indicators. Had PBOCS problems not slowed
down the delivery of questionnaires to the PDCC, it is conceivable that labor costs may have
been lower during these months.




                                                                  Page 22 of 26
                    OIG Quarterly Report to Congress, January 2011

Whistleblower Allegations Concerning Operations in Brooklyn, New York

On July 19, 2010, the Inspector General testified before a congressional hearing in Brooklyn on
allegations concerning improprieties surrounding officials at the Brooklyn Northeast Local
Census Office, specifically the office manager and the assistant manager for field operations.13

The charges, received through two e-mailed hotline complaints, alleged that these officials had
directed employees to falsify enumeration questionnaires using information from an Internet
database rather than attempting to conduct in-person interviews, as required by Census
procedures.14 Within hours of receiving these complaints, we reviewed and forwarded the
information to senior management at Census headquarters, requesting that Census initiate an
immediate investigation. The Census Bureau’s investigation—which included a personal visit to
Brooklyn by the Census Director along with a Census investigative team—confirmed the
allegations. As a result, we initiated our own investigation of both the allegations and the actions
taken by Census in its response.

Within 8 days of our receiving the first complaint, Census notified us that it had terminated both
the office manager and the assistant manager for field operations and had ordered the re-
enumeration of all questionnaires completed on or after June 12 (2 days before the complaint
was received), bringing in staff from nearby offices to carry this out. The number of housing
units requiring re-enumeration was 4,221.

As a result of the Brooklyn incident, Census developed a process for identifying cases in which
data were used improperly; it also began applying a methodology nationwide to detect anomalies
indicative of similar abuses.

Irregularities continued. Less than a month later, we received two subsequent complaints that
during the re-enumeration, some employees assigned from the other Brooklyn offices were
inferring the number of household residents through improper means. Both we and Census
independently verified this allegation as well, concluding that one of the causes may have been
the interpretation of Census directives made by field staff enumerating “last resort” cases
(addresses that could not be enumerated directly or by proxy interview after numerous attempts).
As a result of this ambiguity, some enumerators resorted to counting the names on mailboxes,
while others based their assumptions on other visible evidence. Census reviewed the matter and
decided on corrective action, which included further re-enumeration. Clearly, for subsequent
censuses, the bureau must ensure that its written guidance clearly prescribes both acceptable and
unacceptable last-resort enumeration actions for determining the occupancy status of a housing
unit and the number of its residents.



13
   Whistleblower Allegations Concerning Census Operations in Brooklyn, New York, statement of the Inspector
   General, U.S. Department of Commerce, before a field hearing of the House Committee on Oversight and
   Government Reform, Brooklyn, N.Y., July 19, 2010.
14
   Our hotline received a third e-mail 2 days after the first two, repeating the allegations and also indicating that an
   office operations supervisor had resigned, rather than complying with the managers’ orders.


                                                    Page 23 of 26
                OIG Quarterly Report to Congress, January 2011

Finally, we reported the allegations concerning the Brooklyn Northeast office to the U.S.
Attorney’s Office for the Eastern District of New York. This office has declined to prosecute the
allegation.

2010 Fingerprinting Adjudication Process

Census attempted to assess the suitability of its employees (1.4 million for Census 2010) for
temporary decennial work through its Census Hiring and Employment Check (CHEC) Division.
It worked with the FBI to check applicants’ information against the FBI’s criminal database.
While initially sending only applicant names, dates of birth, and social security numbers, in
October 2008 Census began submitting applicant fingerprints as well. In reviewing the CHEC
adjudication process from April through July 2010, we determined that the adjudication process
basically worked as intended.

However, we did find that Census’s Field Division needed to strengthen its policy and enforce
procedures for removing individuals that should have been suspended or terminated based on the
CHEC adjudication. After asking the Field Division for its policy and procedures for removing
enumerators from the field, we received eight documents, including two from a Census regional
office. While Field Division managers stated that they told local Census office personnel to
remove enumerators on these lists from the field, none of the documents outlined specific
responsibilities and actions to be taken by office personnel. One office failed to quickly remove
an individual from field work who had a record of a serious offense, thus increasing the risk that
this individual could have harmed members of the public. In future censuses these procedures
need to be tightened.

In its planning for 2020, the bureau should begin its fingerprinting process sufficiently early for
each operation so that new hires can complete fingerprint screening before they receive
assignments and conduct fieldwork.




                                           Page 24 of 26
               OIG Quarterly Report to Congress, January 2011

                                     Appendix A:
                         Objectives, Scope, and Methodology
This quarterly report on the 2010 Census provides an update on the status of 2010 Census with
respect to schedule, cost, and risk management activities. This information mostly covers
activities that occurred from April through September 2010.

To accomplish our objectives, we conducted a review of documentation, including monthly
status reports, field operations logs, computer help desk logs, activity schedules, program
management reviews for 2010 Census contracts, and updates to plans for Census-managed
activities such as paper-based operations, financial management and status of funds reports,
internal budget variance reports, risk registers, and mitigation and contingency plans for
program-level risks. We attended weekly schedule and risk management meetings during this
reporting period; we also met with systems managers, spoke with subject-matter experts, and
observed daily meetings of technical oversight groups.

After intensive planning, we prioritized our review of 2010 Census operations based on their
highest perceived risk. We deployed 15 staff members across the country to perform NRFU and
VDC field observations from May through July 2010. We prioritized our selection of local
Census offices based on the bureau’s demographic measures of enumeration difficulty. We
balanced the sample by including several areas that were not considered hard to count. Finally,
we reviewed areas where reported or perceived problems were occurring. Our field operations
reviews included observation of operation-specific 2010 Census enumerator training classes,
field operations, and office procedures, practices, and conditions.

We conducted this review from April through September 2010, under the authorities of the
Inspector General Act of 1978, as amended; Departmental Organization Order 10-13, dated
August 31, 2006, as amended; and in accordance with the Quality Standards for Inspections
(revised January 2005) issued by the President’s Council on Integrity and Efficiency.




                                         Page 25 of 26
                OIG Quarterly Report to Congress, January 2011

                                   Appendix B:
                      Local Census Offices Visited by OIG Staff

            During Nonresponse Follow-up, April through June 2010

Phoenix, Ariz.                 Louisville, Ky.             Beaverton, Ore.
Little Rock, Ark.              New Orleans, La.            Folcroft, Pa.
Fresno, Calif. (2)             Catonsville, Md.            Providence, R.I.
Los Angeles, Calif.            Rockville, Md.              Beaufort, S.C.
Salinas, Calif.                Medford, Mass.              Nashville, Tenn.
Stockton, Calif.               Dearborn, Mich.             Houston, Texas
Denver, Colo.                  St. Louis, Mo.              Laredo, Texas
New Haven, Conn.               Concord, N.H.               Burlington, Vt.
Hialeah, Fla.                  New Brunswick, N.J.         Richmond, Va.
Atlanta, Ga.                   Long Island City, N.Y.      Olympia, Wash.
Idaho Falls, Idaho             New York, N.Y. (2)          Beckley, W.Va.
Chicago, Ill.                  Watertown, N.Y.
Fort Wayne, Ind.               Oklahoma City, Okla.


                       During Vacant Delete Check, July 2010
Mobile, Ala.                   Sioux City, Iowa            Brooklyn, N.Y.
Tucson, Ariz.                  Kansas City, Kan.           Rochester, N.Y.
Vista, Calif.                  Houma, La.                  Wilmington, N.C
Newark, Del.                   Detroit, Mich.              Fairfax, Va.
Savannah, Ga.                  Duluth, Minn.               Everett, Wash.
Urbana, Ill.                   Omaha, Neb.




(OIG-19791-5)



                                     Page 26 of 26
